TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Steps Can Be Taken to Reduce the
                     Challenges Taxpayers With Vision
                 Impairments Face When Attempting to Meet
                           Their Tax Obligations



                                          March 23, 2007

                              Reference Number: 2007-40-057




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  March 23, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Steps Can Be Taken to Reduce the Challenges
                               Taxpayers With Vision Impairments Face When Attempting to Meet
                               Their Tax Obligations (Audit # 200640036)

 This report presents the results of our review to determine whether taxpayers with vision
 impairments are provided quality service. The audit was included in our 2007 Annual Audit
 Plan.

 Impact on the Taxpayer
 Taxpayers with vision impairments face unique challenges when attempting to meet their tax
 obligations. The Internal Revenue Service (IRS) can make improvements to its procedures,
 policies, and tax tools that will aid taxpayers with vision impairments. This would enhance the
 ability of taxpayers with vision impairments to access tax return preparation assistance, forms,
 publications, and notices.

 Synopsis
 The American Foundation for the Blind reports that there are between 7 million and 10 million
 people in the United States who are blind or vision impaired. The National Eye Institute1 reports
 that, by 2020, the number of people who are blind or have low vision is projected to increase
 substantially. This includes the senior vision-impaired population that is expected to increase
 from 7.3 million in 2001 to 14.8 million by 2030.

 1
   The National Eye Institute conducts and supports research that leads to sight-saving treatments and plays a key
 role in reducing visual impairment and blindness. The National Eye Institute is part of the National Institutes of
 Health, an agency of the United States Department of Health and Human Services.
                       Steps Can Be Taken to Reduce the Challenges Taxpayers
                        With Vision Impairments Face When Attempting to Meet
                                         Their Tax Obligations


The IRS provides tax forms and publications in formats accessible to taxpayers with vision
impairments to help them file their tax returns. The IRS offers tax forms and publications in
large print, Braille, and talking forms.2 The Braille and talking form documents are accessible to
persons using special assistive technology, including screen reading software, refreshable Braille
displays, and voice recognition software. During Fiscal Year 2006, the Alternative Media Center
made more than 782 tax forms and 109 publications available in alternative media.
Although the IRS provides forms and publications in alternative media, it discourages taxpayers
from filing tax returns in these formats. The IRS offers free tax return preparation assistance at
its Taxpayer Assistance Centers and Volunteer Income Tax Assistance sites,3 but assistance is
limited to simple tax returns for taxpayers with moderate to low income. The IRS also offers
free online filing to taxpayers with incomes at or below $52,000, but taxpayers who require
screen readers or adaptive computer technology to view the Internet cannot participate.
Currently, most notices that taxpayers receive from the IRS are standardized,
computer-generated notices using 12-point Arial font for document headings and 11-point Arial
font for text language. These font sizes for notices may be too small for taxpayers with vision
impairments to read. Taxpayers can call the IRS toll-free telephone number with questions about
the notices and/or ask assistors to read the notices to them, but assistors do not have access to the
actual notices sent to taxpayers.
There is currently no systemic process to routinely provide large-print notices for taxpayers who
need or desire them. Nor is there a process or means to capture the number of taxpayers that
need or desire alternative media so that the IRS can determine the population of taxpayers with
vision impairments and study the need for more service options.
Finally, taxpayers with vision impairments could benefit from additional viewing options on the
IRS public Internet site, IRS.gov. For example, although the IRS is in compliance with
Section 508 of the Rehabilitation Act of 1973,4 the IRS does not provide its web site users the
option of using their Internet browsers to increase the size of fonts or change the background
colors for easier viewing.
Currently, information received from the IRS’ national partners serves as the primary source of
data on the needs of vision-impaired taxpayers. Recently the IRS initiated a program called
TAXfacts+, which is a public-private collaborative study designed to improve the long-term
economic well being of Americans with disabilities. The IRS; the National Disability Institute;


2
  Talking forms are tax forms accessible to web site users using a screen reader and speech recognition software.
3
  Taxpayer Assistance Centers are IRS offices that offer walk-in assistance. The Volunteer Income Tax Assistance
Program uses certified volunteers sponsored by various organizations who receive training to help prepare basic tax
returns.
4
  29 U.S.C. Section 794(d), as amended by the Workforce Investment Act of 1998 (Pub. L. No. 105-220),
August 7, 1998.
                                                                                                                  2
                   Steps Can Be Taken to Reduce the Challenges Taxpayers
                    With Vision Impairments Face When Attempting to Meet
                                     Their Tax Obligations


and the Stakeholder Partnerships, Education, and Communication function’s national partners
who aid those with disabilities unveiled the program in October 2006.
The IRS is undergoing a 5-year study, called the Taxpayer Assistance Blueprint, to improve
customer service. However, neither TAXfacts+ nor the Taxpayer Assistance Blueprint focuses
on the needs of taxpayers with vision impairments. The senior population is expected to double
by 2030, and vision loss from eye diseases will increase as Americans age. The IRS should
consider the challenges the estimated 71 million seniors will have by 2030 when interacting with
the IRS to meet their tax obligations. Improving the viewing options on IRS.gov will help
improve customer service for the taxpayers with vision impairments and promote voluntary tax
compliance.

Recommendations
The Commissioner, Wage and Investment Division, should consider the feasibility of eliminating
the income restriction on free tax preparation at the Taxpayer Assistance Centers for taxpayers
with disabilities and allow them to schedule appointments in advance for tax return preparation
assistance; consider the feasibility of providing an interface that would make tax preparation
software packages accessible to blind and other taxpayers with vision impairments through the
Free File web site; partner with advocacy groups to conduct a study to determine the current and
future needs and required services for taxpayers with vision impairments; once the information
on the needs of taxpayers with vision impairments is gathered, use the results to develop a
long-term strategy to assist taxpayers with vision impairments, including vision-impaired senior
taxpayers; and consider providing additional viewing options on IRS.gov, such as scalable fonts,
enlarged text size, or background colors, to make it more accessible to taxpayers with vision
impairments.

Response
The IRS agreed with all of our recommendations. It will consider the feasibility of eliminating
the income requirement for free tax return preparation for taxpayers with disabilities. The IRS
revised its procedures to allow taxpayers with special needs, such as a disability, to make
appointments via telephone to receive service in Taxpayer Assistance Centers. The IRS will
study the feasibility of providing an interface that would make tax return preparation software
packages accessible to blind and other taxpayers with vision impairments through the Free File
website. A partnership with advocacy groups has been initiated to conduct a research project to
determine the needs of taxpayers with vision impairments. The IRS will use the results of the
research project to develop a long-term strategy to assist taxpayers with vision impairments,
including senior taxpayers with vision impairments. The IRS has identified and requested
additional funding for addressing IRS.gov limitations that currently prevent taxpayers from
taking full advantage of web browser functionality to increase font size and use built-in
                                                                                                  3
                   Steps Can Be Taken to Reduce the Challenges Taxpayers
                    With Vision Impairments Face When Attempting to Meet
                                     Their Tax Obligations


accessibility features. Management’s complete response to the draft report is included as
Appendix VII.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                              4
                           Steps Can Be Taken to Reduce the Challenges Taxpayers
                            With Vision Impairments Face When Attempting to Meet
                                             Their Tax Obligations




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Internal Revenue Service Provides Tax Forms and Publications
          in Formats Accessible to Taxpayers With Vision Impairments to Help
          Them File Their Tax Returns........................................................................Page 3
          Taxpayers With Vision Impairments Have Limited Access to
          Internal Revenue Service Tax Return Preparation Assistance .....................Page 5
                    Recommendations 1 and 2: ..............................................Page 7

          Internal Revenue Service Notices Present Challenges for Taxpayers
          With Vision Impairments..............................................................................Page 8
                    Recommendations 3 and 4: ..............................................Page 11

          Taxpayers With Vision Impairments Could Benefit From Additional
          Viewing Options on IRS.gov .......................................................................Page 11
                    Recommendation 5:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Accessibility Options Available on the Social Security
          Administration Internet Web Site .................................................................Page 18
          Appendix V – National Eye Institute Internet Web Site...............................Page 19
          Appendix VI – Installment Agreement Reminder Notice ............................Page 20
          Appendix VII – Management’s Response to the Draft Report.....................Page 21
       Steps Can Be Taken to Reduce the Challenges Taxpayers
        With Vision Impairments Face When Attempting to Meet
                         Their Tax Obligations




                   Abbreviations

IRS          Internal Revenue Service
VITA         Volunteer Income Tax Assistance
                        Steps Can Be Taken to Reduce the Challenges Taxpayers
                         With Vision Impairments Face When Attempting to Meet
                                          Their Tax Obligations




                                                Background

The American Foundation for the Blind reports there are between 7 million and 10 million
people in the United States who are blind or have vision impairments.1 The National Eye
Institute2 reports that, by 2020, the number of people who are blind or have low vision is
projected to increase substantially. The Internal Revenue Service’s (IRS) own research states the
number of taxpayers with vision impairments at or over the age of 65 is projected to more than
double from 7.3 million in 2001 to 14.8 million by 2030.
Furthermore, low vision and blindness increase significantly with age, particularly in seniors.
                                                         The United States Census Bureau
       Figure 1: The Growth of the Senior                reports there were 35 million American
       Population With Vision Impairments                seniors in 2000, representing
                                                         12.4 percent of the total American
                                                         population.
                                                                        By 2030, the senior population is
                                                                        expected to double to 71 million (or
                                         14.8                           almost 20 percent of the total
                              11.3
                                                                        American population). Figure 1 shows
                                      The number of persons
                     8.3              with vision impairments           the projected growth of the senior
            7.3                       age 65 and older is
                                                                        population with vision impairments.
                                      projected to more than
                                      double from 7.3 million in
                                      2001 to 14.8 million by 2030.
                                                                        Vision impairments hinder taxpayers’
           2001     2010      2020      2030                            abilities to read and deal with printed
                                                                        information, such as tax forms,
    Source: IRS Project Number, 7-03-16-2-037N, Visual                  publications, and notices. In 2006, the
    Impairment and the Aging of the Population; Robin Leonard,          IRS estimated it would take individual
    Statistics on Vision Impairment – A Resource Manual, The
    Arlene R. Gordon Research Institute of Lighthouse
                                                                        taxpayers from 11 hours and
    International, April 2002.                                          10 minutes to prepare the simplest


1
  A visual impairment, as defined by the Centers for Disease Control and Prevention, means a person’s eyesight
cannot be corrected to a “normal” level. Vision impairment may be caused by a loss of visual acuity, where the eye
does not see objects as clearly as usual. It may also be caused by a loss of visual field, where the eye cannot see as
wide an area as usual without movement of the eyes or turning of the head. Legal blindness, as defined by the
American Foundation for the Blind, is a level of visual impairment that has been defined by law to determine
eligibility for benefits. It refers to central visual acuity of 20/200 or less in the better eye, with the best possible
correction, or a visual field of 20 degrees or fewer. We refer to all of these persons as vision impaired.
2
  The National Eye Institute conducts and supports research that leads to sight-saving treatments and plays a key
role in reducing visual impairment and blindness. The National Eye Institute is part of the National Institutes of
Health, an agency of the United States Department of Health and Human Services.
                                                                                                                Page 1
                       Steps Can Be Taken to Reduce the Challenges Taxpayers
                        With Vision Impairments Face When Attempting to Meet
                                         Their Tax Obligations



2005 tax return to more than 30 hours to complete a more complex tax return with schedules.
Among individuals age 21 to 64 who are vision impaired, 41.5 percent are employed. Among
those unable to see words and letters, 29.9 percent are employed. Providing these taxpayers, as
well as those who are not vision impaired, quality customer service is fundamental to achieving
tax compliance. The complexity of the tax law makes it important for the IRS to ensure tax
assistance is available to all taxpayers, as mistakes and misinformation can easily contribute to
noncompliance.
The 1998 Amendment to Section 508 of the Rehabilitation Act of 19733 states each Federal
Government department or agency shall ensure:
         . . . unless an undue burden would be imposed on the department or agency, that the
         electronic and information technology allows, regardless of the type of medium of the
         technology -- individuals with disabilities who are members of the public seeking
         information or services from a Federal [Government] department or agency to have
         access to and use of information and data that is comparable to the access to and use of
         the information and data by such members of the public who are not individuals with
         disabilities.
In March 2000, the IRS established the Alternative Media Center, which is a unit of the Media
and Publications function in the Wage and Investment Division Customer Assistance,
Relationships, and Education office. It provides multiple alternative media preparation and
delivery services to IRS employees and external customers with disabilities. Its goal is to make
alternative media (e.g., Braille, large-print forms and publications, and talking forms4) available
through the same channels as printed products.
This review was performed at the Stakeholder Partnerships, Education, and Communication and
Field Assistance offices in Atlanta, Georgia, and the Media and Publications function and the
Electronic Tax Administration office in New Carrollton, Maryland, during the period August
through December 2006. The audit was conducted in accordance with Government Auditing
Standards. Testing of internal controls was limited to the policies and organization of the IRS’
program to serve taxpayers with vision impairments. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
  29 U.S.C. Section (§) 794(d), as amended by the Workforce Investment Act of 1998 (Pub. L. No. 105-220),
 August 7, 1998.
4
  Talking forms are tax forms accessible to web site users using a screen reader and speech recognition software.
                                                                                                             Page 2
                          Steps Can Be Taken to Reduce the Challenges Taxpayers
                           With Vision Impairments Face When Attempting to Meet
                                            Their Tax Obligations




                                         Results of Review

The Internal Revenue Service Provides Tax Forms and Publications in
Formats Accessible to Taxpayers With Vision Impairments to Help
Them File Their Tax Returns
Most taxpayers’ only contact with the IRS is during the filing season.5 During these months,
millions of taxpayers seek assistance filing their tax returns by calling the IRS on its toll-free
telephone numbers or walking into local offices called Taxpayer Assistance Centers.6 The IRS
also offers self-assistance options through its print publications and public Internet site, IRS.gov.
To further assist taxpayers with vision impairments with filing their tax returns, the IRS offers
tax forms and publications in large print, Braille, and talking forms. During Fiscal Year 2006,
the Alternative Media Center made more than 782 tax forms and 109 publications available in
alternative media. The Braille and talking form documents are accessible to persons using
special assistive technology, including screen reading software, refreshable Braille displays, and
voice recognition software. Figure 2 shows how screen reader software converts text into a
computerized voice.
                          Figure 2: Blind Web Site Users Guided by Voice




                                                                                                . .   .  . .        .. .   .
                                                                                               .. .. .  ..  .              ..
                                                                                           .    .       .       .          .




              Source: National Federation of the Blind and American Foundation for the Blind.




5
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
6
    Taxpayer Assistance Centers are IRS offices that offer walk-in assistance.
                                                                                                                                Page 3
                    Steps Can Be Taken to Reduce the Challenges Taxpayers
                     With Vision Impairments Face When Attempting to Meet
                                      Their Tax Obligations



Taxpayers can order tax forms and publications in large print or Braille
Taxpayers can order forms and publications in alternative media by calling the IRS toll-free
telephone numbers (1-800-829-1040 or 1-800-829-3676) or by visiting a Taxpayer Assistance
Center. More than 5,000 documents were ordered using this service in Fiscal Year 2006. When
a call for alternative media is received from a taxpayer or requested at a Taxpayer Assistance
Center, an IRS employee routes the order to a contract vendor assistor who inputs the order into
an internal order tracking system. The Alternative Media Center extracts the order and either
fills the order itself or forwards the request to a contract vendor. When the order is completed,
the Alternative Media Center sends the requested materials to the taxpayer.
IRS guidelines require telephone assistors to alert taxpayers who order alternative format
documents that they should receive the documents within 7 workdays to 15 workdays. A test of
six calls made to the toll-free telephone number 1-800-829-3676 to request alternative
documents (three Braille and three large-print documents) resulted in all orders being filled
accurately and timely.
In addition, the Alternative Media Center recently test marketed, in conjunction with the Library
of Congress, a new technology called Digital Talking Books. These media are placed on
compact discs and contain tax documents and a self-opening computer program. When placed in
a computer with a compact disc reader, the tax document self-opens, enlarges the screen if
needed, and reads the document to the viewer. These Digital Talking Books will not display
forms and are not yet available to the general public.

Taxpayers can download tax forms and publications through IRS.gov in Braille
and talking forms
The IRS also makes hundreds of its most popular tax forms and publications accessible on
IRS.gov. The IRS guides taxpayers to its alternative media through the “Accessibility” link
found on each of its webpages. After clicking on “Accessibility,” the user is sent to the IRS
Internet Accessibility webpage that explains how to use the
web site. The webpage also provides a link, “Accessible
IRS Tax Products,” to direct the user to:                        During Fiscal Year 2006,
                                                                   taxpayers downloaded
   •   Download Accessible Tax Forms (Braille and Text           approximately 1.25 million
       Formats).                                                      alternative media
                                                                     documents through
   •   Download Accessible Tax Publications (Braille and                   IRS.gov.
       Text Formats).
   •   Download Accessible Talking Tax Forms.
The instructions for downloading the alternative media documents are clear and easy to follow.
Each Braille download contains two products – a file in text-only format and a file in Braille
format. The text-only files can be used easily with screen enlargers, screen readers, refreshable

                                                                                              Page 4
                      Steps Can Be Taken to Reduce the Challenges Taxpayers
                       With Vision Impairments Face When Attempting to Meet
                                        Their Tax Obligations



Braille displays, and most other accessibility software. The Braille format files are formatted for
printing through a Braille embosser. Sending these files to an embosser will produce a Braille
version of the tax product. Although Braille files or hard copy Braille documents provide
valuable tax information, they cannot be submitted to the IRS.
A talking form allows taxpayers with vision impairments to view the form using a screen reader
equipped with special software. As the viewer manipulates the form, the Digital Talking Book
reader displays and reads text documents out loud along with short descriptions coded into the
fields on the document. Taxpayers can fill in the talking forms, save them to their computer hard
drives, and print and file the forms with the IRS.

Taxpayers With Vision Impairments Have Limited Access to Internal
Revenue Service Tax Return Preparation Assistance
Although the IRS provides forms and publications in alternative media, it discourages taxpayers
from filing tax returns in these formats. The IRS states the large-print forms are to be used for
“easier reading and to practice preparing tax returns.” It instructs taxpayers to use large-print tax
returns as worksheets to figure their tax but not to file them. Therefore, taxpayers with vision
impairments often must seek assistance from others when preparing and submitting their tax
returns if they are unable to complete the tax forms.
IRS officials stated that processing large-print returns results in additional processing time and
costs and could result in additional input errors. If the IRS receives tax returns in large print, it
will process them. Nevertheless, it does not advertise in publications or on IRS.gov that it will
accept and process these large-print tax returns.

The IRS offers free tax return preparation assistance at Taxpayer Assistance
Centers and Volunteer Income Tax Assistance (VITA) sites7 but limits it to simple
tax returns8 for taxpayers with moderate to low income
Taxpayer Assistance Centers and VITA sites provide free tax return preparation and electronic
filing for simple tax returns. This service is available only to certain individual taxpayers,
specifically low- to moderate-income (generally under $39,000), senior, disabled, and
limited-English-proficient taxpayers.


7
  The VITA Program uses certified volunteers sponsored by various organizations who receive training to help
prepare basic tax returns.
8
  U.S. Individual Income Tax Return (Forms 1040 and 1040A), Income Tax Return for Single and Joint Filers With
No Dependents (Form 1040EZ), and Amended U.S. Individual Income Tax Return (Form 1040X) (both current
and prior years), including the following schedules: Schedule A–Itemized Deductions and Schedule B–Interest
and Ordinary Dividends (Schedules A&B) (interest only), Net Profit From Business (Schedule C-EZ), Earned
Income Credit (Schedule EIC), Credit for the Elderly or the Disabled (Schedule R), and Self-Employment Tax
(Schedule SE).
                                                                                                       Page 5
                         Steps Can Be Taken to Reduce the Challenges Taxpayers
                          With Vision Impairments Face When Attempting to Meet
                                           Their Tax Obligations



Current IRS procedures require taxpayers to visit
Taxpayer Assistance Centers to be screened to ensure they
qualify for free tax return preparation assistance. If they                   Taxpayers must come to
                                                                            Taxpayer Assistance Centers
qualify and cannot be served on the date of their visits, the                  or some VITA sites to
IRS is to schedule appointment times within 5 business                       schedule appointments to
days. Taxpayers must return a second time on their                           have tax returns prepared.
appointment dates. A similar process is used for taxpayers
using VITA services.
While this process may pose an inconvenience for some taxpayers, it poses a substantial burden
for taxpayers with vision impairments. The IRS allows a taxpayer to call his or her local
Taxpayer Assistance Center telephone number to schedule an appointment to discuss a tax
account issue but not to schedule an appointment for tax return preparation
Field Assistance office officials responsible for the Taxpayer Assistance Center Program agreed
the requirement of two trips to Taxpayer Assistance Centers for tax return preparation is a
significant imposition on taxpayers with vision impairments and agreed that changing the
restrictions could benefit them. Stakeholder Partnerships, Education, and Communication
function officials responsible for the VITA Program stated this issue had not been previously
considered for the VITA Program but could be evaluated based on its merit.
However, IRS officials stated that, to comply with the Americans With Disabilities Act of 1990,9
they would have to expand the criteria for assistance (e.g., income restrictions or appointment
criteria) to all taxpayers with disabilities, not just those with vision impairments. Services for
both the Taxpayer Assistance Centers and VITA Programs are resource driven, and any changes
could affect services provided for the free tax return preparation assistance program. However,
in Fiscal Year 2006, the IRS waived the income restriction for tax return preparation at the
Taxpayer Assistance Centers for taxpayers affected by Hurricanes Katrina and Rita without
significantly affecting overall service or requiring additional resources. Waiving the income
restriction for tax return preparation at the Taxpayer Assistance Centers and VITA sites and
allowing taxpayers with disabilities to call local offices to schedule appointments would help
reduce burden and provide better customer service for these taxpayers.

The IRS offers free online filing to taxpayers with incomes at or below $52,000,
but taxpayers who require computer screen readers or adaptive computer
technology to view the Internet cannot participate
The IRS partners with members of the tax software industry to provide free online tax return
preparation and filing services through IRS.gov. This Program, called the Free File Program, is
currently limited to taxpayers with adjusted gross incomes10 of $52,000 or less. Although the

9
    42 U.S.C. §§ 12101-12213 (2000).
10
     Adjusted gross income is income less certain deductions and/or expenses.
                                                                                                     Page 6
                         Steps Can Be Taken to Reduce the Challenges Taxpayers
                          With Vision Impairments Face When Attempting to Meet
                                           Their Tax Obligations



IRS is in compliance with Section 508 of the Rehabilitation Act, it partners with private
companies to provide the Free File Program and does not require these companies to also be
compliant.
IRS officials explained the cost to increase accessibility to partners’ web sites can range from
thousands to millions of dollars. Compliance with Section 508 could place an unreasonable
burden on smaller companies that participate in the Free File Program and could adversely affect
the effectiveness of the Program. However, the American Foundation for the Blind has
expressed concern that taxpayers who are blind cannot use the Free File Program services. Also,
accessibility of private industry Internet web sites is coming under additional scrutiny.
Currently, a nonprofit organization representing the blind is suing a major corporation, claiming
that its web site is inaccessible to blind Internet users.11 This case could set an important
precedent for applying Federal Government accessibility law to the Internet.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Consider the feasibility of eliminating the income restriction on free tax
preparation of simple tax returns at Taxpayer Assistance Centers for taxpayers with disabilities
and allow them to schedule appointments in advance for tax return preparation assistance. These
service options should be publicized to alert taxpayers that the services are available.
           Management’s Response: IRS management agreed with this recommendation. The
           IRS will consider the feasibility of eliminating the income requirement for free tax
           preparation for taxpayers with disabilities. In addition, the Field Assistance office
           revised its procedures to allow taxpayers with special needs, such as a disability, to make
           appointments by telephone rather than having to come into a Taxpayer Assistance Center
           to do so.
Recommendation 2: Consider the feasibility of providing an interface that would make tax
preparation software packages accessible to blind and other taxpayers with vision impairments
through the Free File web site.
           Management’s Response: IRS management agreed with this recommendation. The
           IRS will study the feasibility of providing an interface that would make tax preparation
           software packages accessible to blind and other taxpayers with vision impairments
           through the Free File web site. The IRS will work with the Free File Alliance to conduct
           the necessary analysis.




11
     USA TODAY online article, posted October 25, 2006, and updated October 26, 2006.
                                                                                               Page 7
                            Steps Can Be Taken to Reduce the Challenges Taxpayers
                             With Vision Impairments Face When Attempting to Meet
                                              Their Tax Obligations



Internal Revenue Service Notices Present Challenges for Taxpayers
With Vision Impairments
Although the majority of taxpayers contact the IRS only when they file their tax returns, the IRS
may contact taxpayers after they file their tax returns. The IRS sends taxpayers letters and
notices for various reasons, including when it identifies a math error on a tax return, there is a
balance due on a tax account, a tax return is being audited, or the information on a tax return
does not match the information the IRS received from third parties such as financial
institutions.12 One notice, the Installment Agreement Reminder Notice (Notice CP 521), is sent
monthly advising taxpayers of their current balances, monthly payment amounts, and payment
due dates. See Appendix VI for an example of this Notice.
Currently, most IRS notices are standardized,
computer-generated notices using 12-point Arial
font for document headings and 11-point Arial                 11-Point Arial Font
font for text language. These font sizes for
notices may be too small for taxpayers with                  12-Point Arial Font
vision impairments to read. When a taxpayer
requests that the IRS provide a document in large              20-Point Arial Font
print, the document is in 20-point Arial font.
The IRS advised us the industry standard for documents in large print is 18-point font or larger.
Taxpayers may hesitate to share sensitive tax information with family or friends; therefore, they
may not ask someone they know to read the notices for them.
Taxpayers can view standard notices on IRS.gov. If taxpayers know the notice number, they can
look up its purpose, basic message, possible enclosures, and other useful details. Taxpayers can
also call the IRS toll-free telephone number with questions about notices and/or ask assistors to
read the notices to them. However, assistors do not have access to the actual notices sent to
taxpayers.
Instead, assistors access taxpayers’ accounts and identify which notices were issued. The
assistors then read the wording from the standard notices. However, IRS notices can be difficult
to understand, analyze, and comprehend, particularly with only one reading. Notices often
establish requirements and deadlines that taxpayers with vision impairments cannot meet without
viewing them in an accessible format.
Taxpayers can, after receiving a notice, request a copy of the notice in large print or Braille. The
IRS does not advertise that taxpayers with vision impairments can call IRS toll-free telephone
numbers and select the account option to request a notice in Braille or large print, although its
internal guidelines provide instructions to assistors on what to do should a taxpayer call to have a


12
     All letters and notices will be referred to as notices.
                                                                                             Page 8
                   Steps Can Be Taken to Reduce the Challenges Taxpayers
                    With Vision Impairments Face When Attempting to Meet
                                     Their Tax Obligations



notice read. IRS guidelines encourage assistors to dissuade the request for alternative media and
instead provide only a verbal explanation of the notice.
Requests for notices in alternative media are to be routed to the Alternative Media Center, which
will complete the orders and mail the notices to the taxpayers within 7 workdays to 15 workdays.
Officials in the Alternative Media Center stated they had not received many requests for notices
in alternative formats.
This same procedure is used for notices the IRS mails regularly to taxpayers for months and
years, such as the Installment Agreement Reminder Notice. There is currently no systemic
process to routinely provide large-print notices for taxpayers who need or desire them.

Additional information on the population of taxpayers with visual impairments
could help the IRS identify needed services
Although various government agencies and foundations maintain statistics on the number of
vision-impaired Americans, including the number of vision-impaired persons who are employed,
currently the IRS has no means to capture the number of taxpayers who have vision impairments
and need or desire specific services. Being unable to identify the population of taxpayers with
vision impairments makes it difficult for the IRS to determine the need and/or cost effectiveness
of any additional services it might offer.
The IRS can determine the number of taxpayers who are blind and take the standard deduction.
Taxpayers who do not itemize deductions can check a box on Form 1040 to receive an additional
$1,000 or more deduction if they are age 65 or older or blind. Figure 3 presents an excerpt from
the 2006 Form 1040.
                      Figure 3: Excerpt From the 2006 Form 1040




Source: IRS.gov.

An analysis of 2005 income tax return information showed 325,862 taxpayers indicated on their
Form 1040 tax returns that they were blind. Additionally, more than 22 million taxpayers

                                                                                           Page 9
                    Steps Can Be Taken to Reduce the Challenges Taxpayers
                     With Vision Impairments Face When Attempting to Meet
                                      Their Tax Obligations



indicated on their Forms 1040 that they were 65 or older. This includes approximately
8.2 million tax returns with refunds and more than 5.6 million tax returns with balances due.
The IRS can place indicators on taxpayer accounts for various reasons. For example, the main
IRS computer system has an address indicator that identifies addresses in Puerto Rico. There
were approximately 288,000 Processing Year 2006 tax returns that reflected addresses in Puerto
Rico; this indicator automatically designated these taxpayers to receive all documents in Spanish,
including notices.
However, not all taxpayers with vision impairments may
need or desire all tax products in alternative media.
                                                               Banks provide customers
Banks place an indicator on customers’ accounts that             checks and monthly
identifies their preferences to receive bank documents in      statements in large print.
an alternative format. However, they offer this service
only after a customer requests it.
Providing alternative media tax products is resource intensive. However, the IRS should
consider the challenges the estimated 71 million seniors will have by 2030 when interacting with
the IRS to meet their tax obligations. To build a business case to provide more services for
taxpayers with vision impairments, the IRS must first be able to identify the population and the
need. The IRS recognizes it will be affected by the growing vision-impaired population. Its own
research states, “as the prevalence of chronic eye diseases among the elderly increases the IRS’
ability to service the affected elderly population with appropriate tax products will be
significantly challenged.” The IRS will need to increase its focus on how to communicate with
older adults whose ability to function independently is affected by their vision impairments.
The lack of accurate and complete management information hinders the IRS’ ability to provide
effective management oversight. Operational information is essential to run and control any
business or agency and to ensure it is achieving its objectives. At present, information received
from the IRS’ national partners serves as the primary source of data on the needs of taxpayers
with vision impairments. Recently the IRS initiated a program called TAXfacts+, which is a
public-private collaborative study designed to improve the long-term economic well-being of
Americans with disabilities. The IRS; the National Disability Institute; and the Stakeholder
Partnerships, Education, and Communication function’s national partners who aid those with
disabilities unveiled the program in October 2006. In addition, the IRS is undergoing a 5-year
study, called the Taxpayer Assistance Blueprint, to improve customer service. However, neither
of these endeavors focuses specifically on the needs of taxpayers with vision impairments.




                                                                                            Page 10
                    Steps Can Be Taken to Reduce the Challenges Taxpayers
                     With Vision Impairments Face When Attempting to Meet
                                      Their Tax Obligations



Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Partner with advocacy groups, such as the American Foundation for the
Blind, American Council of the Blind, and National Federation of the Blind, to conduct a
research project or study to determine the current and future needs and required services for
taxpayers with vision impairments.
       Management’s Response: IRS management agreed with this recommendation and
       has initiated efforts to partner with advocacy groups in conducting a research project to
       determine the needs of taxpayers with vision impairments.
Recommendation 4: Using the results of the completed research project or study, develop a
long-term strategy to assist taxpayers with vision impairments, including senior taxpayers with
vision impairments.
       Management’s Response: IRS management agreed with this recommendation.
       Once the results of the research project have been received and analyzed, the Media and
       Publications function will lead the effort to develop a long-term strategy to meet the
       needs of taxpayers with vision impairments, including senior taxpayers with vision
       impairments.

Taxpayers With Vision Impairments Could Benefit From Additional
Viewing Options on IRS.gov
The Internet allows those who are blind to carry out on their own many tasks that would
otherwise present difficulties or require the help of a sighted person. Instead of having to visit an
IRS office to obtain forms or get help with a tax question, they can download the forms or
research tax law questions on IRS.gov, which complies with Section 508 of the
Rehabilitation Act. It consists of more than 39,000 individual webpages accessible to
vision-impaired taxpayers who use a screen reader or other devices to view the site. The IRS
stated it is just beginning to put accessibility features in place on IRS.gov and will be adding
more features during the next several months.
IRS.gov is one of the most heavily visited sites on the Internet, with approximately 194 million
visits and more than 1.3 billion page views in Fiscal Year 2006. However:
   •   Although the IRS provides accessibility to IRS.gov for taxpayers with screen readers, it
       does not provide many viewing options to taxpayers with limited vision (those who do
       not require special equipment to view the Internet). The IRS does not provide taxpayers




                                                                                            Page 11
                            Steps Can Be Taken to Reduce the Challenges Taxpayers
                             With Vision Impairments Face When Attempting to Meet
                                              Their Tax Obligations



           the option of using their Internet browsers to increase the size of fonts nor does it provide
           scalable fonts13 for easier viewing on its web site.
       •   The Social Security Administration provides its
           Internet users the temporary use of an Internet
           browsing software program for free. The program
           allows viewers to adjust the text size of the
           webpage content while maintaining the formatting.
           This is a big advantage over simply magnifying a
           screen using browser settings. See Appendix IV
           for accessibility options available on the Social Security Administration web site.
       •   The IRS does not provide instructions on how to best view IRS.gov if the viewer has
           limited vision. The National Eye Institute’s Help Viewing This Site webpage explains its
           web site is designed so it can be viewed using the text style, color, and size preferred by
           its users. Users may need to adjust their browser settings to take advantage of these
           options, and the webpage provides instructions on how to adjust or update the browsers
           for easier viewing. See Appendix V for accessibility options available on the National
           Eye Institute web site.
                                                                                                   Text size: S M L




            Health    Funding   News     Laboratories   Education   Jobs   About NEI   Resources           Help Viewing Site


We believe scalable fonts, the ability to change the background colors for easier viewing, and
other viewing options make it easier for people with limited vision to more easily read and
navigate the Internet. IRS officials acknowledge that the current design of IRS.gov does not
allow users to increase font sizes via their browsers. They have considered providing more
viewing options on IRS.gov, but each creates challenges.
       •   The IRS has considered providing the same software program the Social Security
           Administration offers its Internet users, but the program was not made available because
           service would be provided to one set of disabled taxpayers but not to others. In addition,
           the program used by the Social Security Administration works with a limited set of
           browsers and operating systems, which creates a problem for the IRS because of the vast
           number of browsers it supports.
       •   Every browser and operating system combination handles differently the way the user
           changes text size. IRS officials explained that to allow changes in viewing options would

13
     Scalable fonts are those whose size can be changed on the web site.
                                                                                                                      Page 12
                         Steps Can Be Taken to Reduce the Challenges Taxpayers
                          With Vision Impairments Face When Attempting to Meet
                                           Their Tax Obligations



           necessitate a site redesign, which could have significant cost and schedule implications
           that would have to be considered.
Officials also stated it is not possible to provide simple instructions to guide users through the
process of increasing the text size on their computer screens. Because the IRS supports various
browsers, the IRS would have to provide the specific steps for each supported browser version,
as well as any variations that occur due to the combination of each browser with the users’
operating systems. IRS officials stated it would not only be an “administrative nightmare” to
maintain instructions for all the possible combinations, it could also be burdensome to the end
user to determine which set of instructions to use. If a user could not identify the particular set of
instructions to use, he or she would most likely either give up in frustration or call the IRS.gov
Help Desk. The IRS does not find either situation desirable.
Notwithstanding these
concerns, it may be feasible to                   Figure 4: IRS.gov Visits by Browser
take actions that would
benefit most of the users                                                                 Leading
because 89 percent of visits to                                                           Browser
IRS.gov are accomplished                                                         7%
using 1 browser and 7 percent
                                                   89%                                    Second Leading
using another browser; all                                                       4%       Browser
other browsers account for
only 4 percent of the accesses.
The majority of the other                                                                 All Others
browsers used to view
IRS.gov make up less than
1 percent of the visits. See              Source: IRS management information system reports, August and
                                          November 2006 Browser Statistics.
Figure 4 for a breakdown of
IRS.gov visits by browser.
Improving the viewing options on IRS.gov will help improve customer service for the taxpayers
with vision impairments and promote voluntary tax compliance. The IRS is moving taxpayers
toward receiving self-assistance, and IRS.gov is central to this plan. For example, the Taxpayer
Assistance Blueprint report14 lists the following potential customer service improvement
opportunities that affect IRS.gov:
       •   Simplify and improve the usability of IRS.gov—make notices available online; allow
           taxpayers and partners to check the status of IRS accounts and resolve basic account
           issues (make payments, print transcripts) online.



14
     The 2006 Taxpayer Assistance Blueprint, Phase 1, April 24, 2006.
                                                                                                          Page 13
                    Steps Can Be Taken to Reduce the Challenges Taxpayers
                     With Vision Impairments Face When Attempting to Meet
                                      Their Tax Obligations



   •   Automate the tax law decision logic into an interactive, web-based decision support tool
       on IRS.gov that is accessible to all partners, taxpayers, and IRS employees.
   •   Continue to improve search capabilities on IRS.gov that probe taxpayers to target their
       informational needs.

Recommendation
Recommendation 5: The Commissioner, Wage and Investment Division, should consider
providing additional viewing options on IRS.gov, such as scalable fonts, enlarged text size, or
background colors, to make it more accessible to taxpayers with vision impairments. This
includes ensuring taxpayers are made aware of the options and explaining how to use them, at
least for the browsers that are predominantly used to access IRS.gov.
       Management’s Response: IRS management agreed with this recommendation. The
       Electronic Tax Administration office has identified and requested additional funding for
       addressing IRS.gov style sheet limitations that are currently preventing customers from
       taking full advantage of web browser functionality to increase font size and use built-in
       accessibility features.




                                                                                          Page 14
                         Steps Can Be Taken to Reduce the Challenges Taxpayers
                          With Vision Impairments Face When Attempting to Meet
                                           Their Tax Obligations



                                                                                                Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers with vision impairments
are provided quality service. Testing of internal controls was limited to the policies and
organization of the IRS’ program to serve taxpayers with vision impairments. We did not
identify any internal control deficiencies.
To accomplish our objective, we:
I.         Reviewed available computer-processed tax data to identify the vision-impaired
           population and the number of potential vision-impaired taxpayers who were age 65 or
           older. We determined the 2005 tax return information to be reliable by verifying
           taxpayer accounts to ensure taxpayers indicated they were blind and/or were 65 or older.
           For taxpayers 65 or older, we also validated whether the tax return indicated taxable
           income, a refund, or a balance due.
II.        Discussed customer service policies and organizational controls for taxpayers with vision
           impairments with appropriate IRS officials and determined whether policies were
           appropriate and complied with Section 508 of the Rehabilitation Act of 1973.1
III.       Contacted Federal Government agencies and private corporations to determine whether
           they provide any special services to taxpayers with vision impairments, to identify
           potential best practices.
IV.        Evaluated IRS customer service options available for taxpayers with vision impairments
           by viewing IRS.gov and forms and publications. We also made six calls to the IRS
           toll-free telephone number (1-800-829-3676) to request alternative documents
           (three Braille and three large-print documents) and determine the timeliness of the
           actions.
V.         Determined whether the IRS has considered providing any additional options to assist
           taxpayers with vision impairments.
VI.        Determined whether the number of taxpayers with vision impairments warrants
           additional services to ensure the quality of service provided is sufficient to produce and
           promote voluntary tax compliance.




1
    29 U.S.C. § 794(d), as amended by the Workforce Investment Act of 1998 (Pub. L. No. 105-220), August 7, 1998.
                                                                                                        Page 15
                  Steps Can Be Taken to Reduce the Challenges Taxpayers
                   With Vision Impairments Face When Attempting to Meet
                                    Their Tax Obligations



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Jerry Douglas, Lead Auditor
Kenneth Carlson, Senior Auditor
Mary Keyes, Auditor




                                                                                   Page 16
                  Steps Can Be Taken to Reduce the Challenges Taxpayers
                   With Vision Impairments Face When Attempting to Meet
                                    Their Tax Obligations



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Electronic Tax Administration, Wage and Investment Division SE:W:ETA
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director Stakeholder Partnerships, Education, and Communication, Wage and Investment
Division SE:W:CAR:SPEC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                                     Page 17
                       Steps Can Be Taken to Reduce the Challenges Taxpayers
                        With Vision Impairments Face When Attempting to Meet
                                         Their Tax Obligations



                                                                   Appendix IV

         Accessibility Options Available on the Social
          Security Administration Internet Web Site




Source: Social Security Administration web site, SSA.gov.




                                                                          Page 18
                         Steps Can Be Taken to Reduce the Challenges Taxpayers
                          With Vision Impairments Face When Attempting to Meet
                                           Their Tax Obligations



                                                                      Appendix V

                National Eye Institute Internet Web Site




Source: National Eye Institute web site, Nei.Nih.gov.




                                                                            Page 19
                          Steps Can Be Taken to Reduce the Challenges Taxpayers
                           With Vision Impairments Face When Attempting to Meet
                                            Their Tax Obligations



                                                                                                 Appendix VI

                Installment Agreement Reminder Notice




       Source: IRS Installment Agreement Reminder Notice (Notice CP 521).1




1
    This example of a common notice contains hypothetical information used only for illustrative purposes.
                                                                                                             Page 20
     Steps Can Be Taken to Reduce the Challenges Taxpayers
      With Vision Impairments Face When Attempting to Meet
                       Their Tax Obligations



                                                 Appendix VII

Management’s Response to the Draft Report




                                                        Page 21
Steps Can Be Taken to Reduce the Challenges Taxpayers
 With Vision Impairments Face When Attempting to Meet
                  Their Tax Obligations




                                                   Page 22
Steps Can Be Taken to Reduce the Challenges Taxpayers
 With Vision Impairments Face When Attempting to Meet
                  Their Tax Obligations




                                                   Page 23
Steps Can Be Taken to Reduce the Challenges Taxpayers
 With Vision Impairments Face When Attempting to Meet
                  Their Tax Obligations




                                                   Page 24
Steps Can Be Taken to Reduce the Challenges Taxpayers
 With Vision Impairments Face When Attempting to Meet
                  Their Tax Obligations




                                                   Page 25
Steps Can Be Taken to Reduce the Challenges Taxpayers
 With Vision Impairments Face When Attempting to Meet
                  Their Tax Obligations




                                                   Page 26
